•»

ii

APPENDIX
TABLE OF CONTENT

APPENDIX “A” — Order of the United States Court of Appeals for the Second
Circuit denying panel rehearing and rehearing en banc. Dated July 1, 2020...

la

APPENDIX “B” - Summary Order of the United States Court of Appeals for
the Second Circuit affirming the judgment of the district court. Dated May
11, 2020...........................................................................................................................

2a

APPENDIX “C” - Order of the United States District Court for the Northern
District of New York dismissing the action. Dated April 19, 2019....................

5a

Y

la

APPENDIX “A”
UNITED STATES COURT OF APPEAUS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
1st day of July, two thousand twenty.

Isaac Levin,
Plaintiff - Appellant,
ORDER
v.

Docket No: 19-1102

Kenneth J. Frank, individually and as Corporation
Counsel for The City of Binghamton, Brian Seachrist,
individually and as first Corporation Counsel, The City of
Binghamton, a governmental entity,
Defendants - Appellees.

Appellant, Isaac Levin, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

\

2a

APPENDIX “B”
19-1102
Levin v. Frank

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT=S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION ASLMMARY ORDER@> A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 11th day of May, two thousand twenty.
PRESENT:
JOHN M. WALKER, JR.,
ROSEMARY S. POOLER,
GERARD E. LYNCH,
Circuit Judges.
Isaac Levin,
Plaintiff-Appellant,
v.

19-1102

Kenneth J. Frank, individually and as Corporation
Counsel for The City of Binghamton, Brian
Seachrist, individually and as first Corporation
Counsel, The City of Binghamton, a governmental
entity,
Defendants-Appellees.

FOR PLAINTIFF-APPELLANT:

Isaac Levin, pro se, North Woodmere, NY.

FOR DEFENDANTS-APPELLEES:

Janet D. Callahan (Daniel B. Berman, on the
brief), Hancock Estabrook, LLP, Syracuse,
NY.

\

3a

Appeal from a judgment of the United States District Court for the Northern District of
New York (D’Agostino, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED.
Appellant Isaac Levin, pro se, appeals the judgment of the United States District Court for
the Northern District of New York (D’Agostino, ,/.) dismissing his action challenging the
application of a 2009 zoning ordinance to an investment property he owns. The district court
dismissed the action under Fed. R. Civ. P. 12(b)(6), concluding that it was barred by res judicata
because the same claims had been rejected in a 2011 action brought by an LLC that Levin
controlled. We assume the parties’ familiarity with the underlying facts, the procedural history of
the case, and the issues on appeal.
We review de novo a dismissal under Rule 12(b)(6). Finkv. Time Warner Cable, 714 F.3d
739, 740-41 (2d Cir. 2013) (per curiam).
We conclude that the district court properly dismissed Levin’s action for substantially the
same reasons the district court stated in its April 19, 2019 decision. First, Levin’s argument that
the district court failed to accept as true his assertion about the legal effect of the alleged
abandonment of the first floor commercial space is meritless. See Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (“[T]he tenet that a court must accept as true all of the allegations contained in a
complaint is inapplicable to legal conclusions.”).
Further, because Levin was in privity with the LLC in the prior action and that action was
resolved on the merits, he may not relitigate “issues that were or could have been raised in that
action.” Brown Media Corp. v. K&L Gates, LLP, 854 F.3d 150, 157 (2d Cir. 2017) (internal
quotation marks omitted); see also In re Teltronics Servs., Inc., 762 F.2d 185, 191 (2d Cir. 1985)
(“If a stockholder, officer or director of a corporation controls an action brought on its behalf in
furtherance of his own interests, he is bound by the result of that action.”). Levin’s contention that
he could not have raised an issue earlier because he only recently discovered an appendix to a 1983
zoning code is unavailing. He has not explained why that appendix was necessary to raise the
issue, and he did not show that the appendix “was either fraudulently concealed or . . . could not
have been discovered with due diligence,” as required to prevent the application of res judicata.
Saudv. Bank ofN. Y., 929 F.2d 916, 920 (2d Cir. 1991).
Though Levin makes assertions about fraud on the court (which were not barred by res
judicata) in his reply brief, his argument is meritless. Levin “does no more than complain that the
defendants disputed his version of the law and facts,” which is “insufficient to state a claim for
fraud on the court.” See King v. First Am. Investigations, Inc., 287 F.3d 91, 95-96 (2d Cir. 2002)
(per curiam).
Lastly, the district court properly dismissed the action without granting further leave to

\

4a

amend. See Ruffolo v. Oppenheimer & Co., 987 F.2d 129, 131 (2d Cir. 1993) (per curiam) (“Where
it appears that granting leave to amend is unlikely to be productive, ... it is not an abuse of
discretion to deny leave to amend.”).
We have considered all of Levin’s remaining arguments and find them to be without merit.
Accordingly, we AFFIRM the judgment of the district court, and deny Levin’s motion to strike
statements of his opposing counsel during oral argument as moot.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

5a
APPENDIX “C”
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
ISAAC LEVIN,
3:18-CV-1292
(MAD/DEP)

Plaintiff
vs.
KENNETH J. FRANK, individually and as
Corporation Counselfor the City of Binghamton,
BRIAN SEACHRIST, individually and as first
Corporation Counsel, and THE CITY OF
BINGHAMTON,
Defendants.
OF COUNSEL:

APPEARANCES:
ISAAC LEVIN
960 Cliffside Avenue
North Woodmere, New York 11581
Plaintiff Pro Se
HANCOCK ESTABROOK, LLP
1500 AXA Tower 1100 Madison Street
Syracuse, New York 13202
Attorneys for Defendants

DANIEL B. BERMAN, ESQ.
EMER STACK, ESQ.

Mae A. D'Agostino, U.S. District Judge:

MEMORANDUM-DECISION AND ORDER
I. INTRODUCTION
This case relates to a prior action brought by Plaintiffs limited liability companies against
Defendants Kenneth J. Frank, the City of Binghamton ("Binghamton"), and several other
defendants. See 33 Seminary LLC v. City ofBinghamton, 120 F. Supp. 3d 223, 231 (N.D.N.Y.
2015) (hereinafter, "33 Seminary /'), affd sub nom. 33 Seminary LLC v. The City ofBinghamton,
670 Fed. Appx. 727 (2d Cir. 2016) (hereinafter, "33 Seminary IT'). In the present action, Plaintiff

5

6a
alleges that Defendants violated his substantive and procedural due process rights and committed
fraud upon the court in 33 Seminary 1. See Dkt. No. 21 at 34-38. Additionally, Plaintiff requests
a declaratory judgment from the Court. Id.
Presently before the Court is Defendants' Motion to Dismiss and Plaintiffs Motion for
Reconsideration of the Court's decision to deny a preliminary injunction. See Dkt. Nos. 24, 26.
For the following reasons, the Motion to Dismiss is granted and the Motion for Reconsideration is
denied as moot.
II. BACKGROUND
A.

Facts
Plaintiff is the controlling member in 26 Seminary LLC (the "LLC"), a limited liability

company that he created to purchase property located at 26 Seminary Avenue in Binghamton,
New York (the "Property") in a multifamily residential zoning district. 33 Seminary I, 120 F.
Supp. 3d at 233. When the LLC purchased the Property in 2007, it contained a building with
empty commercial space on the ground floor, two apartments on the second floor, and one
apartment on the third floor. Id. Additionally, the Property did not have any off-street parking.
See Dkt. No. 21 at 6.
In 2009, Binghamton adopted Ordinance 009-009, which increased the amount of off-street
parking that certain residential buildings are required to have. 33 Seminary II, 670 Fed. Appx. at
729. The new parking requirements are triggered "when a building owner sought to modify the use
of an existing structure on the property." Id. Soon after Ordinance 009-009 wasadopted, the LLC
attempted to renovate and modify the use of parts of the building on the

3

7a
Property. Id. The LLC applied for a variance from Ordinance 009-009's parking requirements,which
the town denied.1 Id.
B.

Prior Lawsuit
On November 2, 2011, Plaintiffs companies brought a lawsuit alleging that Ordinance

009-009 was unconstitutionally vague and arguing that the denial of certain building permits and
variances violated the companies' rights under the Due Process and Equal Protection Clauses. See
33 Seminary I, 120 F. Supp. 3d at 231. Qn July 28, 2015, this Court granted summary judgment
against the plaintiffs, which the Second Circuit affirmed on November 23, 2016. See 33
Seminary II, 670 Fed. Appx. at 730-31; see also 33 Seminary LLC v. City of Binghampton [sic],
N.Y., 138 S. Ct. 222 (2017) (denying certiorari).
C.

Present Lawsuit
On August 25, 2018, Defendants demolished the building on the Property after it partially

collapsed.2 See Dkt. No. 21 at 33. On November 5, 2018, Plaintiff commenced this action in his
individual capacity, claiming that Defendants' actions were directed at him because "[t]he LLC
was merely a shell that was used to purchase [the Property]." Id. at 3. Plaintiff alleges that "[a]s
an investor in the LLC, Plaintiff. . . personally suffered emotional distress and financial losses
because of Defendants' wrongful conduct against [the Property]." Id. at 2. Additionally, Plaintiff
claims that in August 2018, he discovered an Appendix A to the 1983 zoning code ("Appendix

1 The town determined that the Property needed to have five off-street parking spaces, but
the LLC claimed that it was unable to provide any off-street parking. 33 Seminary II, 670 Fed.
Appx. at 729.
2 Plaintiff alleges that Defendants intentionally demolished the building on the Sabbath, so
Plaintiff would not discover that the building had been demolished until 9:50 p.m. See Dkt. No.
21 at 33 (stating that" [i]t has been a practice of the anti-Semites to hurt the Jewish population on
Saturday knowing that they could not be found or could be found for various degrees of abuse").

3

8a
A") in an attic. See id. at 4. Relying on Appendix A, Plaintiff now argues that (1) since the
building was vacant for over twelve years, the first floor of the building has reverted to a
residential space, and (2) Plaintiff has the right to change the use of the space without applying
for a variance from Ordinance 009-009's parking requirements. See id. at 9-10, 15, 17-19.
D.

Procedural History
On December 20, 2018, Plaintiff filed an Emergency Motion for a Preliminary Injunction,

which the Court denied on December 26, 2018. See Dkt. Nos. 22, 23. On January 1,2019,
Plaintiff filed a Motion for Reconsideration to ask the Court to reconsider his preliminary
injunction request. See Dkt. No. 26. Defendants opposed that motion on January 17, 2019, and
Plaintiff filed his reply on January 28, 2019. See Dkt. Nos. 32, 36.
On December 28, 2018, Defendants moved to dismiss the action for lack of subject matter
jurisdiction and failure to state a claim. See Dkt. No. 24. Plaintiff opposed that motion on
February 19, 2019. See Dkt. No. 38. For the following reasons, the Motion to Dismiss is granted,
and the Motion for Reconsideration is denied as moot.
III. DISCUSSION
A.

Standing
"Article III, § 2, of the Constitution limits the jurisdiction of federal courts to 'Cases' and

'Controversies,' which restricts the authority of federal courts to resolving 'the legal rights of
litigants in actual controversies.’" Genesis Healthcare Corp. v. Symczyk, 569 U.S. 66, 71 (2013)
(citing Valley Forge Christian Coll. v. Americans United for Separation of Church and State,
Inc., 454 U.S. 464, 471 (1982)). Standing is "the threshold question in every federal case,
determining the power of the court to entertain the suit." Kiryas Joel Alliance v. Vill. ofKiryas
Joel, 495 Fed. Appx. 183, 188 (2d Cir. 2012). "To demonstrate standing, a plaintiff must have

3

9a
'alleged such a personal stake in the outcome of the controversy as to warrant his invocation of
federal-court jurisdiction.'" Salazar v. Buono, 559 U.S. 700, 711 (2010) (quoting Horne v.
Flores, 557 U.S. 433, 445 (2009)) (emphasis omitted).
As the Supreme Court established in Lujan, "the irreducible constitutional minimum of
standing contains three elements:"
First, the plaintiff must have suffered an injury in fact - an invasion
of a legally protected interest which is (a) concrete and
particularized and (b) actual or imminent, not conjectural or
hypothetical. Second, there must be a causal connection between
the injury and the conduct complained of - the injury has to be
fairly traceable to the challenged action of the defendant, and not
the result of the independent action of some third party not before
the court. Third, it must be likely, as opposed to merely
speculative, that the injury will be redressed by a favorable
decision.
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992) (internal citations and quotation marks
omitted). The "[sjtanding doctrine functions to ensure, among other things, that the scarce
resources of the federal courts are devoted to those disputes in which the parties have a concrete
stake." Friends of the Earth, Inc. v. Laidlaw Environmental Services (TOC), Inc., 528 U.S. 167,
191 (2000); see also Genesis Healthcare, 569 U.S. at 71 ("This requirement ensures that the
Federal Judiciary confines itself to its constitutionally limited role of adjudicating actual and
concrete disputes, the resolutions of which have direct consequences on the parties involved").
In the context of zoning disputes, a plaintiff may have standing to sue even if the injury
was directed at a third-party. See Warth v. Seldin, 422 U.S. 490, 504-05 (1975) (holding that
"[wjhen a governmental prohibition or restriction imposed on one party causes specific harm to a
third party, harm that a constitutional provision or statute was intended to prevent, the
indirectness of the injury does not necessarily deprive the person harmed of standing to vindicate
his rights"); see also Cunney v. Board of Trustees of Village of Grand View, 56 F. Supp. 3d 470,

>

10a
491 (S.D.N.Y. 2014) (citing the "numerous cases holding that a party has standing to challenge an
unconstitutionally applied zoning law even if the party is not the owner of the subject property").
Accordingly, a plaintiff with a membership interest in a limited liability company that owns
property may have standing to sue for personal financial losses that resulted from harms to the
property because he "ha[s] an interest in the subject property even when [the LLC] [is] the
property owner." See id. at 492.
Still, in order to allege an injury-in-fact, the plaintiff must identify a specific project that
he invested in and the town denied. See Warth, 422 U.S. at 516 (finding no standing because the
plaintiffs did not identify a specific project that was precluded by the town's ordinance and had
not alleged that the plaintiffs applied for "a building permit or a variance with respect to any
current project"). Standing may be found if the individual has "expended time, money, and effort
in developing [renovation plans], soliciting and receiving professional services, and preparing and
submitting its proposals and applications to [the town]," and has "suffered some loss of potential
profits, income, or fees as a result of [the town's] actions." See Anderson Grp., LLC v. City of
Saratoga Springs, No. 1:05-CV-1369, 2011 WL 2472996, *3 (N.D.N.Y. June 21, 2011)
(hereinafter, "Anderson Grp. 7"), rev'd on other grounds, Anderson Grp., LLC v. City of Saratoga
Springs, 805 F.3d 34 (2d Cir. 2015) (hereinafter,"Anderson Grp. IT'). Finally, in the Second
Circuit, "the denial of an entity's special-use permit application ... is an injury sufficient in itself
to confer standing." Anderson Grp. II, 805 F.3d at 46 (citations omitted).
"For purposes of ruling on a motion to dismiss for want of standing, [the court] must
accept as true all material allegations of the complaint, and must construe the complaint in favor
of the complaining party." Warth, 422 U.S. at 501 (1975). Finally, "in a pro se case, the court
must view the submissions by a more lenient standard than that accorded to 'formal pleadings

y

11a
drafted by lawyers.'" Govern v. Campbell, 289 F. Supp. 2d 289. 295 (N.D.N.Y. 2007) (quoting
Haines v. Kerner, 404 U.S. 519, 520 (1972)) (other citations omitted). The Second Circuit has
opined that the court is obligated to "'make reasonable allowances to protect pro se litigants'"
from inadvertently forfeiting legal rights merely because they lack a legal education. Id. (quoting
Traguth v. Zuck, 710 F.2d 90, 95 (2d Cir. 1983)).
In this case, Plaintiff has sufficiently alleged a personal stake so as to warrant the
jurisdiction of this Court. See Salazar, 559 U.S. at 711. Plaintiff alleges that Defendants denied
the LLC's variance application in 2010 and demolished the building on the Property on August
25, 2018. In Plaintiffs opinion, such conduct amounted to a regulatory taking of the Property and
caused Plaintiff, as "an individual investor and the managing member [of the LLC]" to suffer
emotional distress and financial losses, including ten years of rental income.3 See Dkt. No. 38 at
11 (emphasis omitted); Dkt. No. 21 at 2, 14, 30, 32. The denial of the variance is an injury
sufficient in itself to confer standing. See Anderson Grp. II, 805 F.3d at 46. Additionally, the
alleged financial harms are concrete and particularized, even if their actual value is "subject to
considerable infirmities." See Anderson Grp. /, 2011 WL 2472996, at *3 (finding financial harms
to be injuries-in-fact even though the actual value of the losses may be "subject to considerable
infirmities"); see also Nat. Res. Def. Council, Inc. v. U.S. Food & Drug Admin., 710 F.3d 71, 85
(2d Cir. 2013) ("Even a small financial loss is an injury for purposes of Article III standing").
These harms were caused by Defendants' conduct and can be redressed by an order from this
Court. As such, the Court finds that Plaintiff has standing to sue.

3 Plaintiff attempts to quantify the lost rental income, alleging that "[ajnnual rent for the
house with five bedrooms would amount to $90,000 (at $500 per bedroom) or a total of $900,000
for ten years." See Dkt. No. 21 at 39.

y

12a
Defendants argue that Plaintiff does not have standing because he did not own the
Property until December 7. 2018. See Dkt. No. 24-1 at 15-16. Plaintiff, however, had a
membership interest in the LLC that owned the Property before he did. See Cunney, 56 F. Supp.
3d at 492. Moreover, Plaintiff personally appeared at a public hearing on behalf of the LLC to
support his variance application. See 33 Seminary I, 120 F. Supp. 3d at 235; Cunney, 56 F. Supp.
3d at 492 (attributing significance to the facUhat the plaintiff himself, and not his LLC, had
applied for the certificate of occupancy that was denied by the town, and which he was
challenging in the lawsuit). Therefore, standing is not precluded by the fact that Plaintiff owned
the Property through the LLC until December 2018.
Defendants also argue that Plaintiff lacks standing because his claims are derivative. See
Dkt. No. 24-1 at 15-16. Under New York law, members of an LLC may sue derivatively where
the remedy sought is for the wrong done to the business entity, but sue in their individual capacity
when the '"primary injury' for which relief is sought directly affects an interest the plaintiff
holds." See Bartfield. v. Murphy, 578 F. Supp. 2d 638, 646 (S.D.N.Y. 2008) (citing Excimer
Assocs. v. LCA Vision, Inc., 292 F.3d 134, 139-40 (2d Cir. 2002)); see also Tzolis v. Wolff, 10
N.Y.3d 100, 109 (N.Y. 2008). Flere, Plaintiffs alleged injuries are direct in nature, since he
alleges financial and emotional harm that he personally suffered due to Defendants' conduct.
Accordingly, the Court finds that this is not a derivative action.
B.

Failure to State a Claim
1. Legal Standard
A motion to dismiss for failure to state a claim pursuant to Rule 12(b)(6) of the Federal

Rules of Civil Procedure tests the legal sufficiency of the party's claim for relief. See Patane v.
Clark, 508 F.3d 106, 111-12 (2d Cir. 2007) (citation omitted). To survive dismissal for failure to

V

13a
state a claim, a party need only present a claim that is "plausible on its face." Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). "A claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the reasonable inference that the defendant is liable
for the misconduct alleged." Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citation omitted).
While Rule 8(a) of the Federal Rules of Civil Procedure, which sets forth the general rules of
pleading, "does not require detailed factual allegations, ... it demands more than an unadorned"
recitation of the alleged misconduct. Id. (citations and quotation omitted).
In considering a motion to dismiss for failure to state a claim, the court must accept as true
all well-pleaded facts in the pleading and draw all reasonable inferences in the pleader's favor.
See ATSI Commc'ns, Inc. v. Shaar Fund, Ltd., 493 F.3d 87, 98 (2d Cir. 2007) (citation omitted).
However, "the tenet that a court must accept as true all of the allegations contained in a complaint
is inapplicable to legal conclusions:" Iqbal, 556 U.S. at 678. "Threadbare recitals of the elements
of a cause of action, supported by mere conclusory statements, do not suffice." Id. (citation
omitted).
2. Due Process and Equal Protection Claims
First, Defendants claim that the Section 1983 claims must be dismissed as untimely. See
Dkt. No. 24-1 at 25-26. Section 1983 actions filed in New York are governed by a three-year
statute of limitations, see N.Y. C.P.L.R. § 214(5), which accrues, "when the plaintiff knows or has
reason to know of the injury which is the basis of his action," see Hogan v. Fischer, 738 F.3d 509,
517 (2d Cir. 2013) (citation omitted). Plaintiff has alleged that Defendants demolished the
building on the Property on August 25, 2018, which caused him financial and emotional harms.
See Dkt. No. 21 at 32-33. Therefore, Plaintiff has alleged injuries that occurred within the
relevant time period, and the Section 1983 claims are timely.

14a
Defendants next argue that res judicata bars Plaintiffs constitutional claims. The doctrine
of res judicata, or claim preclusion, applies if a defendant can show that "(1) the previous action
involved an adjudication on the merits; (2) the previous action involved the plaintiffs or those in
privity with them; [and] (3) the claims asserted in the subsequent action were, or could have been,
raised in the prior action." Monahan v. N.Y.C. Dep't of Corr., 214 F.3d 275, 285 (2d Cir. 2000)
(citing Allen v. McCurry, 449 U.S. 90, 94 (1980)); see also Yeiser v. GMAC Mortg. Corp., 535 F.
Supp. 2d 413, 426 (S.D.N.Y. 2008) (noting that res judicata applies equally to pro se litigants).
When res judicata challenges are raised in a motion to dismiss for failure to state a claim,
dismissal is appropriate if "it is clear from the face of the complaint, and matters of which the
court may take judicial notice, that the plaintiffs claims are barred as a matter of law." Conopco,
Inc. v. Roll Ini j, 231 F.3d 82, 86 (2d Cir. 2000).
"Determining whether two parties are in privity often requires a court to inquire whether a
party controlled or substantially participated in the control of the presentation on behalf of a party
to the prior action." Burberry Ltd. v. Horowitz, 534 Fed. Appx. 41, 44 (2d Cir. 2013) (citing
Central Hudson Gas & Elec. Corp. v. Empresa Naviera Santa S.A., 56 F.3d 359, 368 (2d Cir.
1995)) (finding privity where the plaintiff was aware during the first lawsuit of the "close
relationship" between an online retail business and the business's "principal, sole shareholder and
sole officer"). The privity doctrine does not require the parties' interests to be identical, only that
they are "aligned." Id. at 45. Finally, courts have held that owners are in privity with their
companies when the owner "was the admitted mastermind and financier of the [earlier] litigation
and [was] providing similar tactical and financial help" in the second action. Alpert's Newspaper
Delivery Inc. v. The New York Times Co., 876 F.2d 266, 270 (2d Cir. 1989); see also Lia v.
Saporito, 541 Fed. Appx. 71, 73 (2d Cir. 2013) (finding privity between an LLC and the plaintiff,

15a
who was the LLC's 75% owner, sole manager, and sole financier); Svenningsen v. Ultimate Profl
Grounds Mgmt., Inc., "No. 14-CV-5161, 2017 WL 3105871, *4 (S.D.N.Y. July 20, 2017) (stating
that "[pjrivity is generally found when the party to the previous litigation was the sole or
managing member of a closely held corporation").
Once a final judgment has been entered by a court of competent jurisdiction, "the parties
to the suit and their privies are thereafter bound not only as to every matter which was offered and
received to sustain or defeat the claim or demand, but as to any other admissible matter which
might have been offered for that purpose." In re Teltronics Servs., Inc., 762 F.2d 185, 190 (2d
Cir. 1985) (internal citation and quotation marks omitted); see also Nat'l Labor Relations Bd. v.
United Techs. Corp., 706 F.2d 1254, 1259 (2d Cir. 1983) ("Such a judgment precludes the
subsequent litigation both of issues actually decided in determining the claim asserted in the first
action and of issues that could have been raised in the adjudication of that claim"). "New York
takes a transactional approach to res judicata: 'once a claim is brought to a final conclusion, all
other claims arising out of the same transaction or series of transactions are barred, even if based
upon different theories or if seeking a different remedy.'" Yeiser, 535 F. Supp. 2d at 422 (quoting
Sosa v. J.P. Morgan Chase Bank, 822 N.Y.S.2d 122, 124 (2d Dep't 2006)).
Here, Plaintiffs Section 1983 claims are barred by res judicata. First, the Section 1983
claims in this case are nearly identical to those raised in 33 Seminary I, which the Court
adjudicated on the merits when it granted the defendants' motion for summary judgment in 33
Seminary I. See Dkt. No. 23 at 10 (comparing the constitutional claims in this action with the
prior action); Weston Funding Corp. v. Lafayette Towers, Inc., 550 F.2d 710, 715 (2d Cir. 1977)
(holding that summary judgment is a judgment on the merits for res judicata purposes). Second,
Defendants Binghamton and Frank were both defendants in 33 Seminary I, while Defendant

16a
Seachrist and Plaintiff are in privity with the parties in the prior action. Defendant Seachrist is in
privity with the defendants in 33 Seminary I because, as Binghamton's Assistant Corporation
Counsel, he "controlled or substantially participated" in the prior case. See Dkt. No. 21 at 3
(alleging that "Defendant Seachrist acts as a surrogate of Frank. All his actions are directed by
Frank" and that "Corporation Counsel and Assistant Corporation Counsel are responsible for all
legal activities related to the City, including representing the [City] ... in federal, state, and local
courts"). Similarly, as the controlling member of the companies who brought 33 Seminary 7,
Plaintiff is in privity with the plaintiffs in the earlier action. See Alpert's Newspaper Delivery,
876 F.2d at 270; Lia, 541 Fed. Appx. at 73; Svenningsen, 2017 WL 3105871, at *4. Thus, the
Court finds that res judicata bars Plaintiffs equal protection and due process claims.
Plaintiff distinguishes the Section 1983 claims from 33 Seminary I by claiming that
Appendix A, which he recently discovered, grants him a "vested right in the property." See Dkt.
No. 21 at 38. Newly discovered evidence may prevent the application of res judicata where that
evidence "was either fraudulently concealed or when it could not have been discovered with due
diligence." See Saud v. Bank ofNew York, 929 F.2d 916, 920 (2d Cir. 1991) (internal citation
omitted). Appendix A, however, is part of a town code, and is not evidence. Porter v. Shineski,
650 F. Supp. 2d 565, 568 (E.D. La. 2009) ("[statutes are not evidence"); see also Evidence,
Black's Law Dictionary (10th ed. 2014) (defining evidence as something that "tends to prove or
disprove the existence of an alleged fact"). Even if Appendix A was evidence, Plaintiff claims
that he only now discovered Appendix A because he "started the research only recently." See
Dkt. No. 38 at 16-17. Although Plaintiff attempts to blame Defendants for his oversight by
stating that Defendants were "aware at all times" that Appendix A existed, he has not alleged that
Appendix A was fraudulently concealed or was not otherwise discoverable sooner with due

17a
diligence, and Defendants were not required to inform Plaintiff of the existence of an old town
code.4 See Dkt. No. 21 at 30. Thus, the Court finds that Plaintiff could have discovered
Appendix A sooner and raised his "vested right" argument in 33 Seminary 1.
As such, the Section 1983 claims must be dismissed.
3. Requestfor Declaratory Judgment
Plaintiff requests that the Court issue a declaratory judgment stating that (1) Ordinance
009-009 does not apply to the Property, (2) "[i]n accordance with the Zoning Code of 1983
Appendix A 26 Seminary Avenue did not have a commercial space on the first floor July 3,
2007," and (3) "Ordinance 9-2009 was interpreted and applied in an unconstitutional manner to
the detriment of plaintiff." See Dkt. No. 21 at 34-35.
The Declaratory Judgment Act provides, in part, that "[i]n a case of actual controversy
within its jurisdiction . . . any court of the United States, upon the filing of an appropriate
pleading, may declare the rights and other legal relations of any interested party seeking such
declaration, whether or not further relief is or could be sought." 28 U.S.C. § 2201(a). The "actual
controversy" requirement under the Declaratory Judgment Act is coextensive with Article Ill's
case or controversy requirement. See Teva Pharm. USA, Inc. v. Novartis Pharm. Corp., 482 F.3d
1330, 1338 (Fed. Cir. 2007) (citing Aetna Life Ins. Co. v. Haworth, 300 U.S. 227, 239-41 (1937)).
"The requirement of actual controversy encompasses concepts such as ripeness, standing, and the
prohibition against advisory judicial rulings." BP Chems. Ltd. v. Union Carbide Corp., 4 F.3d
975, 977 (Fed. Cir. 1993); see also Caraco Pharm. Labs., Ltd. v. Forest Labs., Inc., 527 F.3d

4 Despite alleging that Defendants perpetrated fraud on the court, Plaintiff does not allege
that Defendants fraudulently concealed Appendix A. See Dkt. No. 21 at .4-5, 32 (claiming that
"Defendants withheld crucial information from Plaintiff and the courts"); id. at 8-9, 25, 29-30, 36
(claiming that the defendants' arguments that the first floor space was commercial and that the
LLCs sought a change of use were fraudulent).

18a
1278, 1291 (Fed. Cir. 2008) (noting that the concepts of standing, ripeness, and mootness bear on
whether a case is justiciable under Article III of the Constitution) (citation omitted).
"The doctrine of collateral estoppel prevents a plaintiff from relitigating in a subsequent
proceeding an issue of fact or law that was fully and fairly litigated in a prior proceeding." Purdy
v. Zeldes, 337 F.3d 253, 258 (2d Cir. 2003) (citing Marvel Characters, Inc. v. Simon, 310 F.3d
280, 288 (2d Cir. 2002)). Collateral estoppel is permitted if "(1) the identical issue was raised in
a previous proceeding; (2) the issue was actually litigated and decided in the previous proceeding;
(3) the party had a full and fair opportunity to litigate the issue; and (4) the resolution of the issue
was necessary to support a valid and final judgment on the merits." Interoceanica Corp. v. Sound
Pilots, Inc., 107 F.3d 86, 91 (2d Cir. 1997) (citation and internal quotation marks omitted).
Importantly, "[tjhese four factors are required but not sufficient," because in addition, "a court
must satisfy itself that application of the doctrine is fair." Bear, Stearns & Co. Inc. v. 1109580
Ontario, Inc., 409 F.3d 87, 91 (2d Cir. 2005) (citing Parklane Hosiery Co. v. Shore, 439 U.S.
322, 331 (1979)) (other citation omitted). '"Full and fair opportunity to litigate requires identity
of parties or privity of parties, and a practical inquiry into the realities of the [previous]
litigation." Mario Valente Collezioni, Ltd. v. AAKLtd., No. 02-CV-0099, 2004 WL 724690, *7
(S.D.N.Y. Mar. 26, 2004) (internal citation and quotation marks omitted).
First, Plaintiff asks the Court to declare that Ordinance 009-009 does not apply to the
Property. See Dkt. No. 21 at 34-35. This Court rejected that argument in 33 Seminary I, when
the plaintiffs argued that a letter they received from the town grandfathered the Property as a
three-family home before Ordinance 009-009 was enacted. 33 Seminary I, 120 F. Supp. 3d at
246. The Court noted that "[a]s [the] [plaintiffs did not seek to continue the legal
non-conforming use of the property, [the] [plaintiffs' argument that they acquired a vested right

19a
in a different non-conforming use of the property is contrary to New York law, which recognizes
that 'a [legal] nonconforming use that predates the enactment of a restrictive zoning ordinance is a
vested right entitled to constitutional protection.'" Id. at 246 n.5 (citing Norton v. Town oflslip,
239 F. Supp. 2d 264, 270 (E.D.N.Y. 2003) (other citation omitted). 5
Here, Plaintiff again argues that the Property does not need to abide by Ordinance 009009's requirements, this time claiming that it was grandfathered by Appendix A. See Dkt. No. 21
at 5. The Court disagrees. Although Appendix A allows the continuation of the use of any
building, structure or land that was lawfully permitted when Appendix A was adopted or was "a
nonconforming use that was permitted prior to the adoption of this ordinance and where the
property owner has expanded [sic] substantial sums in reliance on valid permits," nothing in
Appendix A confers a vested right in a different non-conforming use of the Property.6 See id. at
53. Plaintiff sought to convert the Property from one legal non-conforming use to a different
non-conforming use. Appendix A does not confer such a right, so the fact that Plaintiff

5 The Court continued: "[The letter] does not establish that 26 Seminary was clearly
entitled to convert the 26 Seminary Property from its prior legal non-conforming use to a different
non-conforming use without seeking the requisite approval. Accordingly, [the] [plaintiffs'
contention that 26 Seminary was not required to comply with the parking requirements of the
Ordinance because the property's 'legal non-conforming status allowed the parking of the building
to continue as it was pre-Ordinance' is unavailing, as 26 Seminary did not seek to continue the
legal non-conforming use of the property." 33 Seminary 1, 120 F. Supp. 3d at 246.
6 Section 1201 of Appendix A states that "[t]he lawfully permitted use of any building,
structure or land existing at the time of adoption of this ordinance, or any subsequent amendment
thereto, may be continued in accordance with the provisions of this Article XII even though such
use does not conform to the regulations and standards specified herein. . ." and "a nonconforming
use will be vested if at the time of adoption of this ordinance, or any subsequent amendment
thereto, the property owner has expanded [sic] substantial sums in reliance on valid permits . . .
for a use which was permitted prior to the adoption of this ordinance, or any subsequent
amendment thereto, and shall not be required to comply with the site plan review procedure as set
forth in Article IX of this Zoning Ordinance." See Dkt. No. 21 at 53.

20a
discovered Appendix A does nothing to change the Court's conclusion from 33 Seminary I that
Ordinance 009-009 applies to the property.
Since Appendix A does not change the analysis, the doctrine of collateral estoppel
prevents Plaintiff from relitigating the issue of whether Ordinance 009-009's parking
requirements apply. This issue was raised in the prior proceeding, was actually litigated, and was
decided on its merits when the Court granted summary judgment against Plaintiff. See
Interoceanica Corp., 107 F.3d at 91. Plaintiff had a full and fair opportunity to litigate the issue
through his LLCs, and the resolution of the issue was necessary to support the final order. See id.
Finally, application of collateral estoppel is fair, as the Court considered the argument at length
in the prior litigation. See Bear, Stearns & Co. Inc., 409 F.3d at 91. Therefore, the doctrine of
collateral estoppel applies, and Plaintiffs request for a declaratory judgment on this issue is
denied.
Next, Plaintiff asks the Court to declare that "in accordance with the Zoning Code of 1983
Appendix A 26 Seminary Avenue did not have a commercial space on the first floor July 3,
2007." See Dkt. No. 21 at 34-35. Plaintiff argues that since the commercial space was abandoned
for over 12 months, it restored itself to residential use. Id. at 9-10. Flere, Plaintiff relies on
Section 1207 of Appendix A, which states that if any nonconforming use ceases for a period of 12
consecutive months, or 16 months in any two-year period, "such nonconforming use shall not
thereafter be reestablished." Id. at 55.
In 33 Seminary /, Plaintiff claimed that the first floor contained commercial space. See 33
Seminary /, 120 F. Supp. 3d at 246 (finding that it was "undisputed that at the time the letter was
issued - and at the time that 26 Seminary purchased the property - the 26 Seminary Property
contained a commercial space on the first floor, two residential units on the second floor, and one

21a
residential unit on the third floor"). Regardless, even if the space restored itself to residential use,
Plaintiffs argument that he would no longer need to comply with Ordinance 009-009 would still
fail. Regardless of the first floor use, once Plaintiff attempted to modify the building, he needed
to comply with all new town ordinances, including Ordinance 009-009's parking requirements.
See Dkt. No. 21 at 53-55 (permitting a nonconforming use so long as it was "continued" and
prohibiting modifications to a nonconforming use). Therefore, the Court denies Plaintiffs request
for a declaratory judgment stating that the Property did not have a commercial space on the first
floor on July 3, 2007.
Finally, Plaintiffs argument that Ordinance 009-009 was "interpreted and applied in an
unconstitutional manner to the detriment of plaintiff’ is barred by res judicata, because the Court
addressed Plaintiffs constitutional claims at length in the prior action. See supra § 111(B)(2).
As Such, Plaintiffs request for a declaratory judgment is denied in its entirety.
4. Fraud on the Court
"To find that a party has committed fraud on the court, it must be established by clear and
convincing evidence that the party has repeatedly and intentionally lied ’about issues that are
central to the truth-finding process.’" Shah v. Eclipsys Corp., No. 08-CV-2528, 2010 WL
2710618, *14 (E.D.N.Y. July 7, 2010) (citation omitted). Plaintiff argues that Defendants
withheld crucial information from Plaintiff and the Court, fraudulently argued to the Court that
Plaintiff sought a change of use in the building, and fraudulently told the Court that the first floor
space was commercial. See Dkt. No. 21 at 4-5, 8-9, 25, 29-30, 36. Defendants respond that
Plaintiffs fraud on the court claim is "no more than a complaint that Defendants adopted certain
legal arguments in the prior proceedings and took a purportedly erroneous view of the facts
regarding 26 Seminary Property's status as a non-conforming prior use." See Dkt. No. 24-1 at 23.

'ii

22a
Reviewing the Amended Complaint, the Court finds that Plaintiff failed to adequately
allege the fraud on the court claim. Appendix A did not grant Plaintiff the right to change the
building to a new nonconforming use, and Plaintiff has not alleged any facts to support his
conclusory statement that he was entitled to the variance "as of right." See 33 Seminary /, 120 F.
Supp. 3d at 246. Therefore, even if Defendants willingly chose not to disclose Appendix A to the
Court in the prior action, that omission was not about an issue that was "central to the truthfinding process." Giarrizzo, 2012 WL 12991205, at *2. Additionally, the Court agrees with
Defendants that the legal arguments and factual interpretations that the defendants made in 33
Seminary I cannot support a fraud on the court claim. King v. First Am. Investigations, Inc., 287
F.3d 91, 95-96 (2d Cir. 2002) (rejecting a fraud on the court claim where the defendants "disputed
[the plaintiffs] version of the law and facts" which is "exactly what is expected in the normal
adversary process"). As such, Plaintiff has not sufficiently alleged a fraud on the court claim, and
that claim must be dismissed.
C.

Relief from Final Judgment
Defendants argue that the Court should treat this new action as an untimely Rule 60(b)

motion for relief from final judgment or a Rule 60(d) action challenging the final judgment of 33
Seminary I. See Dkt. No. 24-1 at 16-24. Rule 60(b) provides that "[o]n motion and just terms, the
court may relieve a party . . . from a final judgment, order, or proceeding for the following
reasons: ... (2) newly discovered evidence that, with reasonable diligence, could not have been
discovered in time to move for a new trial under Rule 59(b); [or] (3) fraud . . ., misrepresentation,
or misconduct by an opposing party." Rule 60(d) provides that a court may "(1) entertain an
independent action to relieve a party from a judgment, order, or proceeding; ... or (3) set aside a
judgment for fraud on the court." See Fed. R. Civ. P. 60(d).

23a
This case was brought individually, on behalf of Plaintiff, who was not a party to the prior
litigation. Moreover, Plaintiff did not bring this case as a Rule 60(b) motion or Rule 60(d) action,
and Defendants do not cite to any cases to support the proposition that the Court may construe
this case as such. Therefore, the Court will not consider this new action to be a Rule 60(b)
motion or Rule 60(d) action.
D.

Leave to Amend
Pursuant to Rule 15 of the Federal Rules of Civil Procedure, leave to amend a complaint

should be freely given "when justice so requires." Fed. R. Civ. P. 15(a)(2). "[Ajbsent evidence
of undue delay, bad faith or dilatory motive on the part of the movant, undue prejudice to the
opposing party, or futility, Rule 15's mandate must be obeyed." Monahan v. N.Y.C. Dep’t of
Corrs., 214 F.3d 275, 283 (2d Cir. 2000) (citing Foman v. Davis, 371 U.S. 178, 182 (1962)).
'"An amendment to a pleading is futile if the proposed claim could not withstand a motion to
dismiss pursuant to Fed. R. Civ. P. 12(b)(6).'" Annunziato v. Collecto, Inc., 293 F.R.D. 329, 333
(E.D.N.Y. 2013) (quoting Lucente v. Int'l Bus. Machs. Corp., 310 F.3d 243, 258 (2d Cir. 2002)).
"Therefore a proposed amendment is not futile if it states a claim upon which relief can be
granted." Waltz v. Bd. ofEduc. of Hoosick Falls Cent. Sch. Dist., No. 12-CV-0507, 2013 WL
4811958, *4 (N.D.N.Y. Sept. 10, 2013).
Flere, Plaintiffs constitutional claims are precluded by res judicata, and his fraud on the
court claim is entirely meritless. Additionally, the declaratory judgment that Plaintiff requests
deals with issues previously litigated or completely without merit. Because the Court finds that
better pleading cannot cure these deficiencies, amendment would be futile. Further, pursuant to
Rule 2(A)(ii) of the Individual Rules and Practices of Hon. Mae A. D'Agostino, in order to avoid
dismissal of this action, Plaintiff was required to cross-move to amend the Amended Complaint in

24a

»;

conjunction with his response to the Motion to Dismiss. As Plaintiff did not do so and
amendment would be futile, the Court dismisses the action without providing an opportunity to
amend.
E.

Motion for Reconsideration
As the Amended Complaint has been dismissed, the Court denies Plaintiffs Motion for

Reconsideration as moot.
IV.

CONCLUSION
Accordingly, the Court hereby
ORDERS that Defendants' Motion to Dismiss (Dkt. No. 24) is DENIED in part and

GRANTED in part; and the Court further
ORDERS that Plaintiffs Amended Complaint (Dkt. No. 21) is DISMISSED WITH
PREJUDICE; and the Court further
ORDERS that Plaintiffs Motion for Reconsideration (Dkt. No. 26) is DENIED as moot;
and the Court further
ORDERS that the Clerk of the Court shall enter judgment in Defendants' favor and close
this case; and the Court further
ORDERS that the Clerk of the Court shall serve a copy of this Memorandum-Decision
and Order on the parties in accordance with the Local Rules.
IT IS SO ORDERED.
Dated: April 19, 2019
Albany, New York

r;
/s/ Mae A. D'Agostino
I

Mae A. D'Agostino ;
U.S. District Judge i

